<html>
<title> - THE U.S. STATE DEPARTMENT'S INADEQUATE RESPONSE TO HUMAN RIGHTS CONCERNS IN BOLIVIA: THE CASE OF AMERICAN JACOB OSREICHER</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                THE U.S. STATE DEPARTMENT'S INADEQUATE 
                  RESPONSE TO HUMAN RIGHTS CONCERNS IN
             BOLIVIA: THE CASE OF AMERICAN JACOB OSREICHER

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 6, 2012

                               __________

                           Serial No. 112-153

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
74-635                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="82e5f2edc2e1f7f1f6eae7eef2ace1edefac">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           KAREN BASS, California<greek-l>
TOM MARINO, Pennsylvania             DONALD M. PAYNE, New Jersey--
ANN MARIE BUERKLE, New York              deceased 3/6/12 deg.
ROBERT TURNER, New York              RUSS CARNAHAN, Missouri


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Miriam Ungar, wife of Jacob Ostreicher.......................    13
Ms. Chaya Gitty Weinberger, daughter of Jacob Ostreicher.........    25
Mr. Steve Moore, Special Agent, Federal Bureau of Investigations 
  (retired)......................................................    35

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Karen Bass, a Representative in Congress from the 
  State of California:
  Letter from Members of Congress to General Freddy Barsatti 
    Tudela dated May 29, 2012....................................     5
  Prepared statement.............................................     7
Ms. Miriam Ungar: Prepared statement.............................    17
Ms. Chaya Gitty Weinberger: Prepared statement...................    28
Mr. Steve Moore: Prepared statement..............................    40

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Karen Bass: Material submitted for the record......    62


    THE U.S. STATE DEPARTMENT'S INADEQUATE RESPONSE TO HUMAN RIGHTS 
       CONCERNS IN BOLIVIA: THE CASE OF AMERICAN JACOB OSREICHER

                              ----------                              


                        WEDNESDAY, JUNE 6, 2012

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                  and Human Rights,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 o'clock 
a.m., in room 2172 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and I want 
to wish everybody a good morning. Thank you for joining us for 
this extremely important and timely hearing to examine the 
situation of Mr. Jacob Ostreicher, who has been imprisoned for 
over 1 year in Bolivia, and the involvement of the State 
Department in this case.
    Normally this subcommittee focuses on human rights issues 
in the context of whether foreign governments are respecting 
the rights of their own people. But today we are undertaking 
the sobering task of defending the human rights of one of our 
own fellow citizens. Mr. Ostreicher and his wife, Miriam Ungar, 
who is here with us today to testify on behalf of him, are from 
New York. His daughter, Chaya Weinberger, will also be 
testifying, and she is from New Jersey and a resident of my 
congressional district. She lives in Lakewood.
    They are part of a large family and a close-knit Orthodox 
Jewish community. It was actually Rabbi Aaron Kotler, the chief 
executive officer of Beth Medrash Govoha, the yeshiva, who 
first brought Mr. Ostreicher's plight to my attention about 3 
weeks ago. Human rights abuses that are happening to Mr. 
Ostreicher in Bolivia are being felt deeply and personally here 
in our own country.
    Our distinguished witnesses will provide compelling 
testimony on the facts of Mr. Ostreicher's case and the abuses 
that he has suffered and continues to suffer. And we will also 
examine whether Mr. Ostreicher has been receiving the 
assistance that he should receive as a United States citizen 
abroad, with the purpose of ascertaining what should be done 
going forward. We will also do everything we can to correct the 
ongoing extreme injustice being perpetrated against Mr. 
Ostreicher and secure his freedom as quickly as possible.
    But this responsibility rests primarily with the U.S. 
Department of State. Our Embassy and consular affairs personnel 
are in-country, have direct and regular contact with host 
government officials, and have access to local information that 
is of critical importance to the safety and security of our 
citizens.
    For this reason, after having studied the information 
provided by Mr. Ostreicher's family and Bolivian attorney as 
well as the various media reports, and knowing of his extremely 
precarious physical and mental health, I was deeply disturbed 
by our State Department's report to this subcommittee on May 
22nd that, ``Embassy La Paz will continue to remain in close 
contact with Mr. Ostreicher and his family and will carefully 
monitor the progress of his case.''
    According to the State Department's Country Reports on 
Human Rights Practices for 2011, ``principal human rights 
problems'' reported for Bolivia were ``arbitrary or unlawful 
deprivation of life, arbitrary arrest or detention, and denial 
of a public, fair trial.'' The executive summary goes on to 
list other human rights problems including harsh prison 
sentences and conditions, official corruption, and a lack of 
government transparency. The report further specifically 
references political and judicial corruption, a problem with 
violence among prisoners, pretrial detainees being held with 
convicted prisoners, and inadequate medical care in the 
prisons.
    When one has heard the testimony that will be presented at 
this hearing, which shows that all of these human rights abuses 
and more are implicated in this case, an overriding question 
is, ``Where is the State Department?'' When we are dealing with 
a country that has such serious human rights abuses, how can 
the State Department perceive its role as one of merely 
monitoring the case instead of advocating?
    Unfortunately, I am finding this baffling lack of 
responsiveness, one might even call it indifference, on the 
part of Embassy and consular personnel to be a disturbing 
pattern. It is certainly true that the State Department and our 
Foreign Service has many dedicated, talented and experienced 
personnel who are deeply committed to the service of our 
country, and who even risk their lives in the performance of 
that service. I have and will continue to highly commend them 
and give them my unqualified support.
    But within the past few years I have assisted constituents 
and residents of New Jersey facing grave crises with family 
members in Georgia, Brazil and now in Bolivia, who have turned 
to me when they were unable to obtain help from the State 
Department or local Embassy and Consular Affairs officials. In 
a world of increasing travel and international commerce, 
American citizens expect, and have a right to expect, American 
officials who represent them in any country to respond to their 
needs, most particularly in situations that threaten their 
safety, their security, and their lives. Being in close contact 
and ``monitoring'' does not begin to fulfill this expectation 
in a case that involves grave human rights abuses in a country 
such as Bolivia.
    These past 3 days, the Organization of American States held 
its 42nd General Assembly in Cochabamba, Bolivia, with a focus 
on food security. I sent a letter to the Assistant Secretary 
for Western Hemisphere Affairs, Roberta Jacobson, who headed 
the U.S. delegation, asking her to publicly and assertively 
raise Mr. Ostreicher's case at this event. Not only was it held 
in the country where a U.S. citizen is being denied his 
fundamental rights, but a topic of that event goes to the heart 
of the beneficial enterprise that Mr. Ostreicher was 
undertaking at the time of his arrest, substantially increasing 
rice production to the country and providing hundreds of new, 
well-paying jobs for its people.
    Unfortunately, Ms. Jacobson did not publicly mention Mr. 
Ostreicher during her time in Bolivia. The State Department 
informed congressional offices that she raised his case 
privately with the Foreign Minister who was present at the 
General Assembly. When he responded that it is not in his area 
of competence, she simply followed up with the request that he 
reach out to the Justice Minister about the case. Does anyone 
really think that this exchange will have any meaningful 
results?
    The OAS General Assembly afforded an ideal opportunity for 
Ms. Jacobson to laud Mr. Ostreicher's successful efforts to 
increase rice production and provide local employment 
opportunities as a prime example of why governments need to 
address internal corruption and promote private, foreign 
enterprise. Bolivian President Evo Morales was asked during the 
media interview on May 31 about the extent to which he could 
guarantee the safety of foreign investments in Bolivia. He 
responded, ``all of the firms that invest in Bolivia and comply 
with agreed conditions will be respected.'' Are you kidding?
    Ms. Jacobson should have emphasized that unless and until 
so-called agreed conditions do not include submission to 
corrupt practices, and successful businessmen like Mr. 
Ostreicher are no longer victimized by the Bolivian Government 
and judicial processes, foreign investors will not direct their 
resources to Bolivia, and the country will not solve its food 
security and other governance issues. But even more 
importantly, Ms. Jacobson had the responsibility to advocate 
for Mr. Ostreicher's freedom, simply because there is no 
evidence that has been submitted that any crime has been 
committed and his continued imprisonment is a human rights 
violation.
    I would have welcomed, as would other members of this 
panel, the opportunity to hear from Ms. Jacobson, or another 
knowledgeable State Department official, at this hearing as to 
their efforts on Mr. Ostreicher's behalf. They declined. The 
U.S. State Department declined to come here today. But we are 
privileged to have the distinguished witnesses who did agree to 
join us today to examine this important case.
    Before we hear from them, I would like to give my 
colleagues on this subcommittee and some invited guests who are 
here today an opportunity to make opening comments, and without 
objection, after all of our subcommittee have been recognized, 
again I will recognize some of my distinguished colleagues from 
New York who have joined us today.
    I would like to now yield to our ranking member, Ms. Bass, 
for opening comments you might have.
    Ms. Bass. Thank you. Mr. Chairman, let me begin again by 
thanking you for holding this important hearing regarding Mr. 
Ostreicher. Allow me to express my deepest concern for Mr. 
Ostreicher and his family, who have endured a great deal since 
his June 2011 detention.
    As we are all aware, as of this Monday, Mr. Ostreicher has 
been held in detention for more than a year. And while he has 
only been preliminarily charged, what is clear is that his case 
continues to languish. There is also great concern over his 
physical and mental health which has become increasingly dire 
over the last several weeks.
    It is reported that three different judges have been 
assigned to Mr. Ostreicher's case over the past year, and that 
there has been little, if any, meaningful progress toward 
opportunities to clear his name. The Congressional Research 
Service reports that nongovernmental groups suggest that more 
than 80 percent of prisoners in Bolivian prisons are awaiting 
sentencing. While the Bolivian justice system allows for up to 
18 months before an individual is charged, it is my 
understanding that this is far from the norm and many cases far 
exceed this time frame. I hope the Bolivian justice system will 
move toward a fair, transparent and speedy trial.
    Mrs. Ungar, I understand that your husband has grown 
increasingly frustrated with this process and at present has 
cut off ties with our people on the ground. I encourage you and 
your husband to keep channels of communication open so that our 
diplomatic efforts lead to a speedy and fair end to this very 
serious situation. Let me be clear. We have not forgotten your 
husband.
    Mr. Chairman, with your permission I would like to submit 
for the record, a joint House-Senate letter by our fellow 
colleagues.
    Mr. Smith. Without objection, so ordered.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Bass. This letter calls upon the Bolivian Government to 
provide the opportunity for Mr. Ostreicher to post bail and to 
afford him due process under Bolivian international law 
standards. I quote from the letter, signed by my colleagues 
from New York, Representatives Nadler and Velazquez and 
Senators Schumer and Gillebrand:

        ``As you may be aware, Mr. Ostreicher's detention is 
        related to accusations of illegal profiting and 
        association with criminal organizations. We understand 
        that Mr. Ostreicher was preliminarily charged on June 
        4, 2011, and initially detained in a temporary holding 
        facility at the Santa Cruz offices of the Federal 
        counternarcotics police. In accordance with the June 4 
        judicial decision, Mr. Ostreicher was transferred to 
        the Palmasola prison in Santa Cruz. It is our 
        understanding that the United States Department of 
        State has been in direct communication with the 
        Bolivian Government regarding Mr. Ostreicher's case, 
        and we are appreciative of this continued dialogue. 
        While we remain appreciative of the access the 
        Government of Bolivia has provided American State 
        Department officials, it is evident Mr. Ostreicher's 
        health has deteriorated over time and that bail in 
        anticipation of a speedy trial is warranted in this 
        case.''

    Mr. Ostreicher's case appears fraught with inconsistencies, 
lack of transparency and other very concerning twists that have 
not permitted defense against various allegations. As my 
colleagues in the House and Senate have clearly called for, it 
is my sincere hope that the Bolivian Government moves 
expeditiously to set bail for Mr. Ostreicher, permits 
additional visits by private medical officials, and that a fair 
and speedy trial is initiated.
    Due process is enshrined in several human rights treaties 
and covenants. In one such instrument, the International 
Covenant on Civil and Political Rights, which came into force 
in 1976, and for which Bolivia is a party, reads as follows:

        ``Anyone arrested or detained on a criminal charge 
        shall be brought promptly before a judge or other 
        officer authorized by law to exercise judicial power 
        and shall be entitled to trial within a reasonable time 
        or to release. It shall not be the general rule that 
        persons awaiting trial shall be detained in custody, 
        but release may be subject to guarantees to appear for 
        trial at any other stage of the judicial proceedings 
        and should occasion arise for execution of the 
        judgment.''

    Under this specific circumstance and context, Bolivia 
should live up to its obligation under international law. It is 
my hope that as Mr. Ostreicher prepares for what I understand 
is a hearing on June 11, that these matters will be fully 
addressed and he will be set free to rejoin his family and put 
this ordeal behind him.
    Thank you, Mr. Chairman, and I look forward to hearing from 
today's witnesses.
    [The prepared statement of Ms. Bass follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much, Ms. Bass. And now we will 
turn to Mr. Turner, gentleman from New York.
    Mr. Turner. Chairman Smith, Ranking Member Bass, thank you 
for calling this hearing today. In my short time serving in the 
House, Chairman Smith, I have seen you as a model for advocacy 
on behalf of political justice around the world, and today is 
another good example. I would also like to thank Jacob's wife 
and daughter for testifying today. I can't imagine your 
anguish, and I applaud your courage. I also want to thank 
former FBI agent, Stephen Moore, who has had a distinguished 
career with the FBI both domestically and in some of the 
world's most dangerous places.
    Here is what we know. Jacob Ostreicher, husband, father and 
grandfather, has been unlawfully imprisoned in Bolivia for 
nearly a year without being charged. He lives in a prison town 
where the guards monitor the exterior but internally there is 
no supervision, a condition which puts Jacob in fear for his 
life daily. He needs medical attention and has been repeatedly 
denied it. What we don't know is why he was denied his freedom 
by the same judge who had previously cleared him of any 
wrongdoing. What we don't know is what is being done by the 
State Department to resolve the issue and ensure Jacob's safe 
return to the United States and his family. What we don't know 
is what is meant by private discussions by the State 
Department. While these private discussions take place, Mr. 
Ostreicher remains in prison in subhuman conditions and without 
just cause.
    According to the State Department's 2010 human rights 
report on Bolivia, I quote, ``The principle human rights 
violations reported were killings and torture by security 
forces, harsh prison conditions, allegations of arbitrary 
arrests and detention, and ineffective, overburdened and 
corrupt judiciary.'' Does the State Department not believe its 
own report? Does it not think it is real? One would think that 
this quoted sentence, which appears at the very beginning of 
the report, this would be cause for alarm when an American is 
in prison for 1 day, let alone 1 year.
    So I ask, when will the State Department reunite Jacob with 
his wife, his five children, his 11 grandchildren? This is not 
rhetorical. His family deserves a response, and I will work 
with the chairman and my colleagues together to get the answers 
they deserve.
    Thank you. I yield back.
    Mr. Smith. Thank you very much, Mr. Turner. I would like to 
now yield, and thank him for joining us on the panel, Mr. 
Nadler.
    Mr. Nadler. Thank you, Chairman Smith and Ranking Member 
Bass. I appreciate your holding this hearing today and allowing 
me to participate, though I am not a member of this committee.
    I am here today out of great concern for my constituent, 
Jacob Ostreicher. Like me, Mr. Ostreicher's family, friends and 
his community in Brooklyn are very concerned about his 
situation. As you know, in June of last year, Mr. Ostreicher 
was arrested in Bolivia on allegations of money laundering and 
associating with criminal organizations. More than a year 
later, he is still being held in a Bolivian jail with no formal 
charges having been filed against him despite his insistence 
that he is innocent. Mr. Ostreicher is being held in a private 
cell in the Palmasola prison, a facility that is notoriously 
violent, according to reports. He has been active in advocating 
for his cause through the news media, and several media reports 
regarding his situation have been released this year.
    On May 25, Mr. Ostreicher was given the threat of a 
disciplinary penalty by prison authorities for reports that 
were released about the condition of the prison and media 
stories about his case that fostered ``discontent among the 
prison population,'' as the penalty document puts it. The 
penalty could result in his movement to a more dangerous part 
of the prison for 15 days, and it potentially could be used 
against him in an upcoming hearing. This penalty has not yet 
been carried out and Mr. Ostreicher's lawyer is appealing it. 
The Bolivian authorities must know that the carrying out of 
this penalty would not be acceptable.
    Since he was first imprisoned I have been in frequent 
contact with the State Department about the status of Mr. 
Ostreicher's case and his condition. The State Department has 
communicated with the Bolivian Government regarding his 
situation and to express the frustration of Mr. Ostreicher and 
our Government regarding his treatment. That work must continue 
until we see positive results. Last month, after meeting Mr. 
Ostreicher's wife, Miriam, I wrote a letter to Secretary of 
State Hillary Clinton asking for help communicating to the 
Bolivian Government the necessity of giving Mr. Ostreicher a 
reasonable opportunity to post bail and access to a swift 
trial. I have also written a letter with my colleagues in the 
House and Senate to the Bolivian Government asking for the 
same.
    Bolivian law has its own standards that allow a prisoner to 
be held for 18 months on preliminary charges in a pretrial 
phase, if they think there is reasonable basis to believe that 
a crime was committed. However, holding someone for this long 
without a fair trial, or at the very least the opportunity for 
bail, violates basic standards of fairness and human rights. 
Mr. Ostreicher is entitled to a fair trial. He is entitled to 
see the evidence against him, to have the opportunity to 
present evidence in his own behalf and to have that case heard 
promptly and impartially. Our job will not be done until he has 
been accorded the full measure of the simple justice to which 
he and we are all entitled.
    I especially am concerned about the frequent postponement 
of hearings in this case. Out of 15 judicial hearings scheduled 
for Mr. Ostreicher, only three have actually taken place. In 
addition, after a judge ordered Mr. Ostreicher freed on bail in 
September, the judge later reversed his position just before 
being promoted to another judicial position. Mr. Ostreicher has 
not been given another opportunity to post bail. A hearing 
regarding Mr. Ostreicher's eligibility for bail is currently 
scheduled for next week, June 11th.
    I am here today in part to make sure the Bolivian 
Government is aware that our Government at a high level is 
calling for due process of law and a swift and fair trial for 
Mr. Ostreicher, and is keeping a very close watch on what is 
happening. Right now Mr. Ostreicher is on a hunger strike to 
protest his imprisonment. As a result, he is physically weak 
and his family is concerned about his health. His health and 
safety must continue to be monitored. We need everyone, Members 
of Congress, officials in the executive branch in the State 
Department and other interested parties to keep their eyes on 
that prize and keep up the pressure on the Bolivian Government.
    It is important for everyone to remember our goal, making 
sure Mr. Ostreicher is provided fair treatment and basic due 
process. They must be made to understand that we will not stand 
by and simply accept the treatment that he has received to 
date. Pressure must be applied to the Bolivian Government and 
its justice system to get this man and his family out of the 
terrible limbo they are in by ordering a speedy trial and a 
fair opportunity to be free on bail during this process. I hope 
this hearing will serve to do just that, to keep the pressure 
on the Bolivian Government and demonstrate how important Mr. 
Ostreicher and his situation are to important U.S. Government 
officials.
    Chairman Smith and Ranking Member Bass, again I want to 
thank you both for holding this hearing and allowing me to take 
part. I yield back the balance of my time.
    Mr. Smith. Thank you, Mr. Nadler. I would like to now 
yield, with such time as you may consume, to Ms. Velazquez.
    Ms. Velazquez. Thank you, Mr. Chairman, Ranking Member, for 
holding this important hearing and for allowing me to 
participate.
    Mr. Chairman, Jacob Ostreicher's case is a stark reminder 
of the importance of due process in our legal system. The right 
to a fair and speedy trial is a fundamental principle in 
American society. Our founders recognized that without this 
cornerstone of American law, the government could arrest and 
hold citizens indefinitely. It has now been 370 days since 
Jacob was originally arrested. Yet, he has not been charged. 
The prosecution has not even presented any evidence of his 
guilt. While, initially, Jacob was to be released on bail, that 
decision was revoked. The judges in the case have been removed 
and currently no judge is presiding.
    Meanwhile, Jacob remains locked up at Palmasola prison in 
Santa Cruz, Bolivia. That notorious facility was designed to 
hold 1,000 prisoners, but is currently home to 3,500 people. 
Unlike U.S. facilities, this prison is essentially run by the 
prisoners. Guards provide food and make sure prisoners do not 
escape, but do nothing to maintain order within the prison's 
walls. Reports suggest that gangs control life inside the 
prison. At least once a month there is a suicide reported, and 
critics suggest many of these deaths may actually be murders. 
Jacob has undertaken a hunger strike to protest his unjust 
treatment, and there are now very real health concerns about 
his continued detention.
    While Jacob's case presents important issues about how the 
United States protects its citizens abroad, we sometimes forget 
the human dimension to these cases. We should keep in mind 
Jacob is not only a businessman. He is also a Brooklyn native 
and a pillar in our local community. He is a devoted husband 
and the father of five children. He and his wife are blessed 
with 11 grandchildren. Today, I suspect we will hear testimony 
from his family, not only about the legal status of Jacob's 
case, but also about the type of man he is and what his family 
has endured throughout this ordeal.
    Equally important, it is critical that we understand what 
the State Department is doing on behalf of the Ostreichers. 
Today, it is my hope that Jacob's family can share with us 
their experience of working with the State Department. I want 
to know what steps the State Department has taken that have 
already been effective and, more importantly, what more can be 
done to ensure Jacob sees justice.
    How the United States protects the rights of its citizens 
who are unjustly detained abroad goes to the core of our values 
as a nation. The way we respond to nations that ignore 
fundamental legal and human rights reflects on all of us. It is 
my hope that this hearing will bring additional attention to 
Jacob's case and illuminate what additional steps our 
Government can take in pursuing justice on his behalf.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Smith. Thank you, Ms. Velazquez, for your statement and 
for being here.
    I would like to now invite to the witness table our three 
distinguished witnesses for this afternoon. And again I would 
note, the U.S. Department of State was invited. We will invite 
them again at any time they would like to come and give a 
presentation and accounting as to their advocacy or the lack 
thereof, but they have been invited and they failed to show.
    Beginning first with Ms. Miriam Ungar who is the wife of 
Mr. Jacob Ostreicher, as we will learn from her testimony she 
has visited Mr. Ostreicher in Bolivia numerous times both prior 
to and after his arrest. She has gone from having a normal, 
happy life as a resident of Brooklyn, New York, to being a lead 
advocate for her husband in prison almost 4,000 miles away in a 
country with a different language, culture, and an 
incomprehensible disregard for fundamental human rights and 
legal due process. She is serving to help her husband maintain 
his physical well being and mental sanity in horrendous prison 
conditions, including assisting him to follow his observances 
as an Orthodox Jew. Ms. Ungar, your courage and your fidelity 
to your husband during this extraordinarily difficult ordeal 
are to be highly commended and we absolutely praise you for 
that, and it is truly a privilege to have you testify before 
the subcommittee today.
    We will then hear from Chaya Weinberger, another courageous 
family member who is joining us this morning. Chaya Weinberger 
is the daughter of Mr. Ostreicher, of course, and that is why 
she is here. Ms. Weinberger is married and the mother of five 
small, beautiful children whose picture we will see during the 
course of her testimony. She is a resident of Lakewood, New 
Jersey, and I have had the honor of representing her.
    Ms. Weinberger has also visited her father in the notorious 
Palmasola prison in Bolivia, and has attended several of his 
hearings. In addition to the pain of her father's unjust 
incarceration and the frustration with repeatedly postponed 
court hearings, Ms. Weinberger has the additional burden of 
trying to hide from her children the reason for their 
grandfather's extended absence. It was not easy for Ms. 
Weinberger to agree to testify at this hearing, but we are 
deeply appreciative for her willingness to do so on her 
father's behalf.
    We will then hear from Mr. Steve Moore, who served as a 
special FBI agent and supervisory special agent for 25 years, 
retiring in 2008. Mr. Moore led the investigations of many 
high-profile crimes in Los Angeles including the first ever 
conviction for an anthrax threat, and the Buford Furrow 
shooting murder spree at a Jewish community center. He spent 
several years on SWAT, was trained as a sniper and served as 
the undercover agent on a critical espionage investigation.
    Mr. Moore was the case agent for the Los Angeles 9/11 
investigation, and later chosen to supervise all al-Qaeda 
investigations for Los Angeles FBI. In 2003, Mr. Moore stood up 
the FBI squad in charge of responding to acts of terrorism 
against the U.S. in Asia and Pakistan including the bombings of 
the U.S. Consulate in Karachi and the JW Marriott Hotel in 
Jakarta. He established a liaison and worked closely with the 
CIA and U.S. State Department in several countries, conducting 
investigations out of at least six U.S. Embassies. Mr. Moore 
also served as a term assistant legal attache at the U.S. 
Embassy in Nassau, Bahamas, during the summer of 2004.
    In his retirement, Mr. Moore has voluntarily undertaken to 
use the skills and considerable extensive experience he has 
acquired as an FBI special agent to help exonerate Americans 
wrongly incarcerated abroad including Amanda Knox, who was 
convicted in 2009, in Italy, of murdering her roommate. In this 
capacity he went to Bolivia in early April 2012, to visit Mr. 
Ostreicher and to investigate his case.
    So again, thank you, all three, and thank you, Mr. Moore, 
for your service to our country, which has been extraordinary.
    Ms. Miriam Ungar, if you could begin.

    STATEMENT OF MS. MIRIAM UNGAR, WIFE OF JACOB OSTREICHER

    Ms. Ungar. Good morning, Mr. Chairman, members of the 
committee. My name is Miriam Ungar and I am the wife of Jacob 
Ostreicher. Some members may think as a wife I may not be 
objective in the case of my husband. Although I live in agony 
every day wondering if Jacob will live to the next, I will not 
share my opinion on any issues that I present to you today, 
rather, I will just state the facts.
    I have witnessed these facts myself. I was in Bolivia from 
June 12, 2011 until October 23. I was in Bolivia several times 
prior to Jacob's arrest and have been back several times since. 
I am here to tell you that my husband has been incarcerated on 
unsubstantiated accusations for more than 12 months. He has yet 
to be formally charged and has proven his innocence in a court 
of law. Every day that he remains in prison his human rights 
are being violated.
    Jacob went to Bolivia in December 2010 to take over 
management of a rice company. The first harvest under Jacob's 
management produced 50 million pounds of rice. This high volume 
was never previously produced in Bolivia by one company, and it 
was only 10 percent of the projected amount the company would 
produce in the next 3 years.
    The Government proceeded to investigate the properties of 
the company and realized that one of the properties was 
previously owned by a man who lived in Bolivia for the past 15 
years. This man was wanted in Brazil in the 1990s, but did not 
have a criminal record in Bolivia. Jacob had nothing to do with 
this man and was not aware of his prior history. This was the 
excuse the prosecutors used to gain access to all the assets of 
the company and to then arrest Jacob on June 3, 2011.
    At Jacob's arraignment, prosecutors alleged that Jacob was 
part of a criminal organization based on claims that the 
company's main investor, Andre Zolty, was wanted in 
Switzerland. Since Jacob had power of attorney from Andre Zolty 
for purposes of making decisions on behalf of the business, the 
prosecutor claimed this was proof of criminal organization. The 
prosecutor also alleged that the money invested was illegally 
obtained and resulted in illicit gains. The prosecutors knew 
this was not true. They had seen documentation previously 
proving that all the money invested in the business was cleared 
through the Central Bank of Bolivia.
    The judge did not request proof of any of these allegations 
and ordered Jacob to be sent to Palmasola prison, one of 
Bolivia's most notorious prisons. The judge's order constituted 
an illegal act because according to Bolivian law sufficient 
evidence must be submitted to a judge at the arraignment before 
an arrest can be made. Before being sent to Palmasola, Jacob 
was thrown into a holding cell and was kept there for 5 days.
    After getting all the documents necessary to prove Jacob's 
innocence, I traveled to Bolivia to present the documents to 
the attorney we hired to defend Jacob. At first we were unable 
to get a hearing scheduled because the judges were all going on 
vacation for the month of July. In August, we were told we 
couldn't get a hearing scheduled because the transcript of the 
June 4 arraignment was not completed. Finally, a hearing was 
scheduled, not one but many. I will list them for you. 
September 9, September 14, September 23. This one actually 
commenced.
    At this hearing, our lawyer presented documentation to 
prove that Jacob was not a flight risk. Bolivian law states 
that in order to be released on bail prior to trial, a prisoner 
should present proof of a family, a business and a domicile. In 
addition, the attorney presented documentation proving that the 
money invested in Bolivia was legally obtained. The money was 
sent from bank to bank, no cash. The lawyer also presented the 
origin of the money that was sent to Bolivia. Certified copies 
of all transfers were submitted to the court. The attorney also 
presented a letter from the Swiss Federal police that stated 
Andre Zolty was not under investigation in Switzerland. The 
attorney claimed that by submitting these documents and proving 
Jacob's innocence, the case would be dismissed.
    Based on all the evidence submitted, the judge ordered 
Jacob's release on bail, and due to paperwork and procedural 
reasons Jacob had to stay in prison until they were completed. 
Six days later the judge revoked his decision, an unprecedented 
move in Bolivia. We appealed the judge's annulment. The appeal 
was finally heard on December 9, after a couple of more 
postponements. The appellate court ordered the judge to explain 
within 48 hours why he revoked his decision of release.
    The scheduled hearings for this explanation were December 
14, it was postponed, December 22, it was postponed. Finally, 
on January 4, 2012, 4 weeks after the appellate court ordered a 
hearing, the judge gave a reason for the revocation of his 
decision, and I quote him, ``I overstepped my boundaries by 
commenting on the evidence submitted.'' A few weeks later this 
judge was promoted to the appellate court. This meant we had to 
start over, file for a hearing again and submit the same 
documents all over again. More hearings were scheduled and 
postponed. January 16, suspended. January 25, suspended. 
February 24, suspended. March 12, hearing proceeds but is 
recessed for 1 week. March 21, suspended. March 29, suspended. 
April 2, the judge recuses himself from the case. May 15, 
hearing is suspended again. Our next hearing is now scheduled 
for June 11.
    All of the excuses for the postponements were illegal. At 
every scheduled hearing we were required to notify the Minister 
of Government. At first, the Minister of Government didn't want 
to accept the notifications. This was the excuse they used to 
postpone some of the hearings. After we forcefully notified the 
Minister of Government of the scheduled hearings, they would 
postpone them with the excuse that they wanted to attend but 
were unable to. This is illegal under Bolivian law. A lift of 
detention hearing must proceed even if the notified parties are 
not present.
    While all of these hearings were being postponed, on 
December 21, 2011, all 50 million pounds of rice in the 
facilities disappeared. It took several hundreds of trailer 
loads close to 3 weeks to remove this amount of rice from the 
storage facilities. Amazingly, no one in Bolivia knows where 
the rice is. Our lawyer requested an investigation. Arrest 
warrants were issued on January 9, 2012, for three people 
involved in this heist, one of whom was a government employee. 
To date, these people have not been found. No one in Bolivia is 
talking about the disappearance of 50 million pounds of rice 
worth more than $18 million. Three people guilty of theft, 
known by the government, cannot be found, yet Jacob, an 
innocent man, languishes in prison. Coincidentally, the 3-year 
ban on rice exports was lifted in March.
    The ride to the courtroom by bus is 1 hour, and the bus is 
packed full and extremely hot. Once the inmates arrive in the 
courtroom they are stuffed into a holding cell in the 
subbasement of a courthouse and kept waiting for hours in 
extreme heat and without fresh air. The prisoners are kept in a 
cell until they are called to the courtroom. Jacob would always 
come into the courtroom drenched in sweat, his lips would be 
caked and dry. There were times when Jacob begged the lawyer to 
make arrangements so he wouldn't have to attend his own 
hearings. But this was not possible, as a prisoner must always 
be present. We were never told in advance that the hearing 
would be suspended. He went through this distress every single 
time.
    It is horrific that Jacob has been in a prison for more 
than a year despite the fact that he has proven and a judge has 
recognized his innocence in a court of law. Worse yet, flying 
in the face of presumption of innocence, the prosecution has 
not proven their allegations at any of these hearings. 
Moreover, just last week Jacob received a notification. A 
penalty was imposed on Jacob because he spoke to local media in 
Bolivia and the United States. He received a 15-day penalty. 
Penalties usually means the prisoners are moved to 
Chonchocorito, a prison where the worst criminals are sent, 
where death is a regular occurrence.
    The devastation this has wrought on our parents, our 
children and our grandchildren is indescribable. How do you 
explain to children that their grandfather is in a prison but 
he didn't do anything wrong? How is Jacob supposed to go on 
living knowing he has done nothing wrong and his freedom has 
been stolen from him? Jacob has been on a hunger strike since 
April 15. He has lost 60 pounds. He is frail and weak, 
emaciated and dejected. Our attorney filed a request to the 
judge to transfer him to a hospital, but the judge is refusing 
to sign this request. Does our Government want to walk an 
innocent American citizen out of this prison or do they prefer 
to carry them out?
    In summary, Mr. Chairman, Jacob's human rights have been 
violated with every postponement, every denial and every minute 
he remains in that prison. Our Government has failed to protect 
its citizen.
    Thank you, Mr. Chairman, for the opportunity to appear 
before you today.
    [The prepared statement of Ms. Ungar follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Ungar, thank you so very much for your 
testimony and for the fervor and the passion that you bring as 
well as the very, very carefully articulated information. I 
think that is very helpful, and hopefully both the State 
Department and the officials in Bolivia are listening because 
this is the beginning not the end of this committee, this 
subcommittee's intervention. Had I, and I am sure others, known 
about this earlier we would have been on top of this. So thank 
you so much. Jacob would be very proud of the testimony you 
have provided.
    Ms. Ungar. Thank you.
    Mr. Smith. I would like to now ask Ms. Weinberger if she 
would proceed.

  STATEMENT OF MS. CHAYA GITTY WEINBERGER, DAUGHTER OF JACOB 
                           OSTREICHER

    Ms. Weinberger. Good morning. Thank you, Chairman Smith, 
and the other members of the subcommittee for scheduling this 
hearing. A hearing like this has been long overdue, and I am 
very thankful that my father's case is finally getting the 
attention it deserves.
    My name is Chaya Weinberger, and although I find it very 
difficult to speak about such a personal matter, I do so for my 
father, Jacob Ostreicher, who is an upstanding American citizen 
begging his country to intervene on his behalf. He, together 
with all those who love him and want him home are waiting. We 
are waiting to see the demonstration of liberty on which our 
country is based upon. We are anticipating seeing justice 
emerge. We are hoping that our country won't let us down. That 
the U.S. Government will do more than monitor the case, as the 
American Embassy in La Paz, Bolivia, has been telling us for 
the past 12 months. Monitoring is not enough. The situation has 
gone from bad to worse and we have not seen the State 
Department respond effectively.
    My father is an innocent man. He has over 1,000 documents 
attesting to that. The Bolivians have not charged him with any 
crime, for there is no crime to charge him with. When his first 
hearing was scheduled many family members traveled to Bolivia 
to attend the hearing. They came from England, Canada, and the 
United States. The courtroom was filled to capacity with loved 
ones. The shock and devastation when the judge decided to 
postpone the hearing was evident on our faces. We were outraged 
that we would have to return home without actually attending 
the hearing. Several other family members traveled to Bolivia 
for the next scheduled hearing. That hearing was postponed as 
well. I had a hard time controlling my emotions and burst into 
uncontrollable tears. My father tried to console me but wasn't 
successful. I would have to travel back home because I left 
five little children, and I was distraught that I had to leave 
my father behind. This scenario repeated itself when I returned 
for a third time in March to attend yet another scheduled 
hearing.
    In the meantime, my father is still sitting in the 
Palmasola prison, where he is clinging onto his sanity. He is 
on the verge of collapse both mentally and physically. On my 
third visit to the prison, he had changed so drastically that I 
could hardly recognize the gaunt skeleton of a man that faintly 
resembled my father, who had always been so strong. During the 
span of 5 weeks, between my second and third visit, he had 
weakened so drastically and was so agitated that he could not 
longer focus on reading more than one paragraph at a time. He 
stared uncomprehending when I asked him a question, and 
appeared totally confused. I was very alarmed when I saw him 
shaking with his head and his eyes taking on a hazy, vacant 
look. I have not seen him since his hunger strike, which he 
began on April 15, and I cannot bear to imagine his present 
condition.
    My father's lawyers have been urging the judge to sign an 
order that would grant him permission to be admitted into a 
hospital. The judge refuses to sign the order. The U.S. State 
Department and the U.S. Embassy tell us that my father first 
needs to be seen by the prison doctor. But there is no licensed 
doctor in prison. The doctor is a prisoner as the other 
prisoners are the guards and cooks. I am extremely anxious that 
my father's medical needs be taken care of; his situation is 
life threatening.
    My father's lawyers tell us that they do not understand why 
no one in the U.S. Government is taking any drastic steps to 
secure his release. We do not understand it either. How can my 
father be allowed to suffer one more day in that misery? The 
American people are watching you now. They want to see how safe 
they really are. When innocent Americans are jailed abroad, 
will their country fight for her citizens, or will she abandon 
them in their time of need?
    Chairman Smith and members of the subcommittee, we are 
tired. We are exhausted from months of appealing to various 
Members of Congress and other U.S. Government officials with no 
response. It has been a frustrating, painful year and we are at 
the end of our strength. We beg of you, Congress, and the U.S. 
State Department, to act now. Soon it may be too late. The only 
one who can get my father out of this nightmare is the U.S. 
Government, with the help of the Almighty.
    There are many people heartbroken about my father's 
condition. He is not just my father. He is also a beloved 
husband, grandfather, uncle, brother and very devoted son and 
grandson. His many friends whom he has always helped are deeply 
concerned about his welfare and have him at the forefront of 
their hearts and minds. His entire extended family, who have 
missed him terribly throughout the year and especially during 
the recent holidays, ask about him constantly.
    When will he be coming home? That is the question that my 
father's 97-year-old grandmother, who has unfortunately found 
out about his terrible situation, asks every day amid tears. 
His predicament weighs heavily on her heart, affecting her 
health. At this late stage in her life when she should be 
experiencing the joy of family and children, she is instead 
spending her days weeping for her imprisoned grandson.
    My dear grandmother who is with us today, is a Holocaust 
survivor, and is completely devastated about her son's dire 
situation. She suffers in silence every day, for she cannot 
share her heartache with her elderly husband since he has a 
heart condition, and hearing that his son is in jail in faraway 
Bolivia for a crime he did not commit would destroy him. When 
he constantly asks about my father, we are compelled to lie, 
telling him that only passport difficulties are preventing him 
from coming home. My grandmother prays every day that her son 
come home before he finds out.
    My children are hurt. They assume that their grandfather is 
away on an extended business trip and believe that they are not 
as important to him as his business. They cannot be more wrong, 
but I cannot assuage their feelings by telling them the real 
reason their grandfather is away. They are traumatized enough. 
My 7-year-old niece told her mother that she already forgot 
what her grandfather looks like. Not only can we not tell the 
children about their grandfather's situation, but I cannot tell 
my father what the children are thinking. It would be so 
painful for him to hear that they are hurt and he could do 
nothing to help them.
    We need him home. Every day that he is gone brings a new 
agony, a new question from our children as to his whereabouts. 
The grandchildren hear their parents conversing in hushed, 
scared voices, and they are confused. They are confused and 
hurting. Kids in school ask them many questions about their 
grandfather and they remain silent. They don't know what to say 
and neither do we.
    Who can find words to explain this madness? Who can tell 
little children that their grandfather is being held hostage in 
a third world country for no reason at all? I cannot. And so I 
appeal to you, the Government of the country I have always 
loved, Let me tell my children and the world a different story, 
one that will show them the greatness of their homeland, an 
advocator of liberty. Let me tell them a story that has a happy 
ending. Let me tell them that their grandfather is finally 
coming home.
    I would again like to thank the subcommittee for arranging 
this hearing especially Chairman Chris Smith, for being the 
first elected official to have his office meet with me as soon 
as he found out about this travesty of justice. Our community, 
family and friends will never forget that he brought my 
father's case to the forefront, and we will be forever 
grateful. Thank you for giving us hope.
    [The prepared statement of Ms. Weinberger follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Weinberger, thank you very much for your 
very eloquent and passionate testimony as well. Thank you so 
much.
    Mr. Moore?

STATEMENT OF MR. STEVE MOORE, SPECIAL AGENT, FEDERAL BUREAU OF 
                    INVESTIGATIONS (RETIRED)

    Mr. Moore. Chairman Smith, Ranking Member Bass, I sincerely 
appreciate your efforts on this matter and for your interest in 
my observations on this. I am not being paid to be here today. 
I am not in any way, shape or form, an employee of the 
Ostreicher family. I don't do this for a living. I believe that 
accepting money for what I am doing would very likely devalue 
my opinion in some peoples' eyes. I have no motive here except 
that I seem to have found myself in retirement with a skill set 
and experiences which can help people, and I would like to do 
that.
    I would like to take a few moments and peel off the polite 
diplomatic veneer of what is going on in Bolivia right now. It 
is so easy to say, well, this is a country going through their 
own judicial procedure, and therefore we have to allow this to 
go through. But in reality, there is no judicial procedure 
going on here. This is a state-sponsored kidnaping. In my 
position, the only stock I have in trade is my credibility. I 
was involved in the Amanda Knox case, and after her exoneration 
I got a lot of requests to become involved in cases. The first 
time I am wrong about a case is the last time I am of any value 
to anybody who is in Jacob's situation. It is crucial to me 
that I don't make a mistake.
    I asked the family to give me all the documentation they 
had, all the court documents. I went to Bolivia. I spent 3 days 
with Jacob. I talked to members of the former Government of 
Bolivia, who were conveniently in prison. I talked to attorneys 
who represented the prisoners. I talked to prisoners, one of 
which asked me to smuggle out a video of him making a payment 
to a judge, and I tried. It was the unanimous, the unanimous 
point of every single person that there is no judicial 
procedure to occur.
    These hearings that they talk about are happening for one 
reason and one reason only, there is no evidence. So if you 
have a hearing you are going to be exposed for having no 
evidence. I have looked at this case from every possible 
direction, every angle, and I admit to you that because it is 
such a complicated case, an initial look at it, a quick brief 
on a one-pager can make it look like, well, there could be 
smoke. There could be fire. I did 25 years in the FBI. I never 
lost a conviction when we brought somebody into court. There is 
no evidence that a crime occurred. First they are going to have 
to prove that a crime occurred, and then they are going to have 
to prove that this innocent man from New York had something to 
do with it.
    This is as I say, simply a state-sponsored kidnaping. They 
are playing six degrees of separation with Jacob. I am sure you 
are familiar with how that works. If you took all the people I 
was acquainted with and everyone they were acquainted with, you 
could quickly get me to the President. With Jacob, they found 
that he had hired somebody who happened to know somebody who 
the Bolivians are saying was a drug dealer. Imagine that, 
somebody in Bolivia being a drug dealer.
    One thing you should know about this prison is that there 
are no big-time drug dealers in it. You know why? Because they 
can afford to buy their way out. One prisoner I was talking to 
said it is a very democratic system because if you don't have 
money they don't charge you as much to get out. Jacob has a lot 
of money in their eyes. I interviewed an attorney, who was 
there to represent one of his clients, while I was at 
Palmasola. He told me that Jacob has four things going against 
him. Number one, he is an American. Number two, he is White. 
Number three, he is a Jew. And number four, he has money. This 
is an attorney. I asked him what Jacob should do and he said, 
pay as quickly as possible.
    The State Department has heroically raised the issue over 
and over with the Government. Had I, when I was working 
kidnaping, raised the issue with the kidnappers, the family 
would not have been satisfied. The State Department has not 
held a single meeting for the purpose of discussing Jacob. 
Whenever they have discussed Jacob with the Bolivian Government 
it has been at a regularly scheduled meeting. They have never 
mentioned his name in public, not once.
    I need to tell you that I worked at an Embassy for a short 
time. I worked out of Embassies on at least six different 
bombing cases, Jakarta, Karachi, Islamabad. The people of the 
State Department are by and large good people, many of them are 
brave. I can remember after the car bombing at the Embassy at 
Karachi, I worked with a regional security officer in Karachi 
and I couldn't help but notice that he still had scars and 
stitches in his face from the glass, and he was at the Embassy 
helping people get out of the country. They are good, good 
people, but they have a problem with their system.
    The system is such that there is a disincentive for anybody 
in State to help an American. It works like this. Your annual 
performance appraisals and your general career track are 
determined by how cordial your relationship is with the host 
government. There is no box to check saying, have you gotten 
any Americans out of jail? All the boxes are about what you 
have done to get along with that country. They actually go and 
interview the people that you interact with in the host 
country. What do you think your performance appraisal is going 
to go if you anger that government, if you accuse them of 
things that they are doing? Your performance appraisal is going 
to tank and your next assignment is not going to be in Italy, 
which you had hoped, it is going to be in Sierra Leone. There 
is no incentive to help an American. There is a strong 
disincentive.
    I speak to you as somebody who spent 20 years in the 
Federal Government doing what I thought were important things. 
Doesn't matter how important the thing is. There was a saying 
in the Bureau that some people used, I am not proud of it, but 
``big cases, big problems; small cases, small problems; no 
cases, no problems.'' In the Federal system, at least in the 
bureaucratic part of the Federal system, you are not rewarded 
for great deeds as much as you are penalized for mistakes and 
problems. The only sane career strategy is to avoid problems. 
The more great things you try to achieve, the more risk you 
have of stubbing your toe and ending up in Dakar and not Rome.
    In a written statement to Congress last year, Secretary of 
State Hillary Clinton declared, ``The State Department has no 
greater responsibility than the protection of U.S. citizens 
overseas, particularly when Americans find themselves in the 
custody of a foreign government facing an unfamiliar and at 
times unfair legal system.'' The State Department has no 
greater responsibility than protecting U.S. citizens overseas 
when they find themselves in a foreign government facing 
unfamiliar and at times unfair legal system.
    If you were to ask my son today what his number one 
priority in life is he would say, I need to get classes set up 
for next semester. I need to get my car fixed. If I were to 
tell you by what I observe what his big priorities are, it 
would be working on that car and fixing his computer. Classes 
might not have much to do with it.
    If you were to look at the State Department today, I would 
hazard to guess that protecting Americans in the custody of 
foreign governments from an unfamiliar and at times unfair 
legal system is not in their top 100. There is a reason for 
that. Protecting Americans who are unfairly charged contradicts 
and complicates and makes more difficult their actual, their de 
facto number one, two and every number through 100 priorities. 
I find no joy in saying these things. I admire the people in 
the State Department. I do not think they are evil people or 
uncaring people. But the fact is clear that the bureaucracy 
that they have established is not designed to help Americans 
and provides a disincentive.
    When I was in the Bahamas as a legal attache, one of the 
first things that I was told was that my responsibility as the 
law enforcement representative of that Embassy was to maintain 
cordial relationships with the Bahamian police, with the 
Bermudan police. I covered from Bermuda to Grenada. My job was 
to stay friendly with these people. Fortunately, I never had to 
deal with an American unjustly incarcerated; usually they were 
nice enough to earn their way into jail. Usually it was people 
who had missed their boat and woke up after a bender in a 
Bahamian jail, or people who had gone too far away from the 
beach in search of prostitution or drugs, only to be set upon 
by gangs who were looking for Americans who are looking for 
prostitution or drugs. But it was clear that there was not an 
incentive for me to go to bat for Americans.
    I think that it is crucial that we examine what is behind 
State Department actions. I was in Palmasola prison with Jacob 
for 3 days. I wanted to be there longer, but on the third day I 
was threatened and shaken down for money from the people that I 
was having to pay to protect me. As you have heard, Palmasola 
prison is basically a--here is Palmasola right now. That is the 
main drag in Palmasola. That is about the nicest section of 
town right there.
    [Photograph.]
    Mr. Moore. The prisoners run the asylum. The guards do not 
come in except to conduct rollcalls, but if you pay you don't 
have to go to rollcall so it is a pointless exercise. Raw 
sewage runs through the street. There are stores throughout the 
place where you can buy meat, food, hardware, paint. This is 
all brought in by the guards because they take bribes.
    That by the way is the cocaine area. It looks a lot like 
the garbage dump because they are colocated.
    [Photograph.]
    Mr. Moore. There is a storefront there where you can buy 
cocaine. A dose of cocaine costs roughly half of what a Coca-
Cola costs in the prison. Water costs a little bit less than 
cocaine. The food you eat is a daily bucket of gruel that is 
brought in, cooked by the prisoners at the kitchen area which 
is conveniently located with another dump so they don't have to 
throw the waste far away. But most people don't eat that 
because they can pay to have food brought in.
    The prison is run not so much by an elected group as it is 
a cartel who has won power through killing other prisoners. 
There are roughly 20 suicides every year, and people have 
become very creative with their suicides, stabbing themselves 
in the back repeatedly at times. Internal discipline is handled 
by a group of people known as the Disciplina Interna. These are 
a group of thugs that are hired by the main group of leadership 
in the prison. They wear special shirts, and for convenience 
they are all lifers so that they have no outside motivation for 
betraying the people that they work for which guarantees that 
they are almost all murderers, serial murderers or serial 
rapists. I have the photographs that I have because I paid a 
serial rapist to take because he had paid a guard to get a 
camera into the prison. I was paying a gentleman, who had only 
murdered one person, to be my security, and he saw me 
interviewing members of the previous government and other 
members who he believed were innocent prisoners, and realized 
that I was not there as I had said, as Jacob's brother-in-law, 
and so he started demanding more money for my safety, and I was 
unable to return to the prison.
    There is prostitution openly in the prison because they 
have a women's prison there, and for $1 American money the 
women are allowed to come into the prison at night, or I am 
sorry, all during the day.
    The State Department's lack of assistance for Americans 
overseas is not simply the case with Jacob. It has been the 
case of every situation I work for. While I do not speak and do 
not purport to speak for the Knox family, I watched for 4 years 
as the Ambassador and the United States Embassy in Italy 
watched essentially a kangaroo trial, and watched as a 20-year-
old American woman was sentenced essentially to life in prison, 
and did nothing.
    The State Department has claimed, or has hidden, really, 
behind the fact that they need to allow the host government's 
judicial system to take its course. I agree with that. The vast 
majority of Americans who are in prison overseas have earned 
their way there. I am not advocating for them. I don't think it 
is wrong that Americans are in prison overseas. I arrested 
almost all Americans. I have no bias in that direction. 
However, the innocent ones have to be looked after. And if you 
tell me that you have to wait for the judicial system to go 
through the motions, I get it, if you are in England, if you 
are in Germany, if you are in Japan. But if you are in Bolivia 
where the State Department has already put in writing that 
there is hardly a judicial system, I mean the closest thing it 
looks like is Al Capone's judicial system. Money has to go up 
for things to happen and money buys positions for people. That 
the United States Government would hide behind the fact that 
this is a legitimate, judicial process is almost offensive. 
They are on one hand saying that this is corrupt and horrible, 
and on the other hand they are saying, but it is good enough 
for us. This encourages the Bolivian Government, because what 
you accept you encourage.
    There is a law I am sure you are aware of, Title 22 Section 
1732 of the United States Code. Whenever it is made known to 
the President that any citizen of the United States has been 
unjustly deprived of his liberty by or under the authority of 
any foreign government, it shall be the duty of the President 
forthwith to demand of that government the reason for such 
imprisonment, and if it appears to be wrongful and in violation 
of the rights of American citizenship, the President shall 
forthwith demand the release of such citizen, and if the 
release so demanded is unreasonably delayed or refused, the 
President shall use such means, not amounting to acts of war 
nor otherwise prohibited by law, as he may think necessary or 
proper to obtain or effectuate the release, and all of the 
facts and proceedings relative thereto as soon as practical, 
and that shall be communicated to Congress.
    I hereby provide notification to this committee that I am 
aware of an American in a prison, in my professional opinion, 
who is unjustly deprived of his liberty under the authority of 
a foreign government. As a 25-year veteran of the FBI familiar 
with the judicial processes overseas and in the United States, 
I testify here under oath that the imprisonment of Jacob 
Ostreicher appears by any reasonable standard to be wrongful, 
and every bit of evidence that I have obtained and reviewed 
supports this conclusion. I call upon the President and the 
State Department to act responsibly according to Title 22 of 
the United States Code. Thank you.
    [The prepared statement of Mr. Moore follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Moore, thank you so very much, especially, I 
think, your point in citing Title 22. We will convey that to 
the President and to the Secretary of State in hopes that they 
will act.
    And let me just ask a few opening questions if I could, and 
again thank you for underscoring, and I hope the press takes 
note of this as well, that you are doing this pro bono. This is 
something that you are absolutely convinced is a gross 
miscarriage of justice. That an innocent man is being not only 
incarcerated but his very life is in danger, and we need to be 
proactive and advocate rather than merely monitor the 
situation, again whatever that means.
    Mr. Moore. Mr. Smith, I just wanted to add one thing----
    Mr. Smith. Yes, please.
    Mr. Moore [continuing]. To add to your statement there. The 
biggest threat to Mr. Ostreicher right now is not a lingering, 
slow death from starvation. It is a quick, unexpected death at 
the hands of prisoners.
    Mr. Smith. Thank you so much for that sense of extreme 
urgency that we need to all be aware of both this side of 
Washington, that is to say the Congress, as well as the 
executive branch.
    Let me ask a few questions if I could, beginning first with 
Ms. Ungar. If you could just tell us when the last time you 
spoke with your husband, and again just a quick update on his 
current state of health. If you could also tell us, with 
regards to the Embassy, in your view, you did speak to this in 
your testimony, but just to make it very clear, what role that 
the Embassy has taken. Has it been an advocacy? A moment ago we 
heard from Mr. Moore that not a single meeting has been 
undertaken for Jacob. It may have come up in larger venues, but 
not a single public word. And I want to know if that is in 
country, in Bolivia, as well as in the United States. Has the 
State Department uttered a single word?
    I think your point, Mr. Moore, about the no greater 
responsibility, that Secretary of State Hillary Clinton stated, 
and very eloquently stated, those words become meaningless if 
they are not applied in a real-world setting of Jacob 
Ostreicher.
    So if you could, what has been said, and again, where has 
the Embassy been?
    Ms. Ungar. First, I spoke to Jacob yesterday. He was unable 
to carry on a long conversation. He did not have the energy for 
that. He is starting to become forgetful. He doesn't remember 
the things he has told me. He doesn't remember anything from 
the day before. I am very concerned about his health, and it is 
deteriorating at a much more rapid rate since he has been on 
this hunger strike for almost 7 weeks.
    As far as the Embassy is concerned, I don't believe that 
they have done anything for Jacob specifically. They have 
raised the case and they have said they monitor the case. 
Raising the case means if they happen to have a meeting with 
the Foreign Minister on another issue, they will happen to 
mention Jacob's name. I think that is insufficient and 
ineffective and very disappointing and very frustrating. And I 
am sure that the State Department does not need me to tell them 
what it is that they can do. I am sure that they know what they 
can do, and that there are things that our Government can do to 
help Jacob, and our goal is to bring him home.
    Our goal is not to get him out on bail where he cannot come 
home, because the fact remains that he was imprisoned 
illegally. Stating that a country has a right to keep him for 
18 months is if they have proven with sufficient evidence that 
he has done something wrong, and that has not happened. What 
they should do is release him and let him come home, and that 
is what we want the State Department to do. Thank you.
    Mr. Smith. Thank you. I think, Mr. Moore, you made a very 
interesting point when you said there is no evidence that even 
a crime has occurred, never mind whether or not Jacob 
Ostreicher was in any way complicit in a crime, but where is 
the crime?
    Mr. Moore. They haven't charged a crime. That is 
incredible.
    Mr. Smith. Let me just ask you with regards to, again Ms. 
Ungar, I understand that you, yourself, were threatened with 
criminal charges in Bolivia. Could you describe what happened?
    Ms. Ungar. Yes, of course. I was notified by a lawyer in 
September 2011 that there were charges brought against me, 
charges of obstruction of justice, and the reason was that I 
had given an interview to CNN via telephone. At the time I fled 
the country and I was afraid to go back there. I believe----
    Mr. Smith. Wait. For an interview with CNN you were 
threatened?
    Ms. Ungar. Yes. I was threatened.
    Mr. Smith. With prosecution?
    Ms. Ungar. Charges were actually started against me for 
obstruction of justice, but I left the country before I was 
able to be served. Thank you.
    Mr. Smith. Could you tell us what action the U.S. consular 
affairs representative took when your husband's hearing was 
postponed? Did they object? Did they advocate for an immediate 
resumption of that hearing or what?
    Ms. Ungar. No, they have not. They did attend every single 
hearing, quietly. They never objected to anything, and they 
don't give us any advice and they don't say anything. They are 
just monitoring. That is basically all they are doing.
    Mr. Smith. Charge d'Affaires John Creamer is in a photo 
that I saw and watched on a YouTube on June 3, 2012, and a 
Bolivian news article also carried it, and it referenced in his 
official capacity dancing in elaborate costume in a parade for 
a large street party. I find it extremely offensive that the 
head American representative in the country apparently did not 
consider it inappropriate to publicly celebrate when an 
innocent U.S. citizen is being held in a notorious prison in 
the same country. And anyone who has seen the picture, I think 
you will find it equally appalling.
    Are you aware of the photo, I would say to anybody on the 
panel, have you seen it, and what does that say to you?
    Ms. Ungar. I am aware of the photo, and I was absolutely 
horrified by the message that this conveys to the Bolivian 
Government. It is okay to have an American citizen in a prison 
even though he is not guilty, and I will even dance with you on 
the street in your costume. I was slapped in the face when I 
saw that. Thank you.
    Mr. Smith. Let me ask if I could, Mr. Moore, perhaps, or 
any of you, where did the $18 million go?
    Mr. Moore. Are you talking about the rice?
    Mr. Smith. Yes.
    Mr. Moore. That really goes to the crux of the case. Evo 
Morales is very interested in proving that socialism is far 
superior to capitalism. To that end he has driven the 
capitalist airline in the country, AeroSur, out of business by 
charging it exorbitant fees for fuel while the company that he 
started is flourishing. The president of AeroSur by the way is 
now being charged with illicit enrichment, which by the way is 
the exact thing that they arrested Jacob for, and he is in 
hiding in Spain.
    Jacob was going to create more rice in 3 years' time than 
the rest of the socialist government could produce in the rest 
of the country. Morales was controlling the price of rice this 
way, because if Bolivian rice ever got on the foreign market 
the price would change drastically and the Bolivians would have 
a problem. Jacob was going to destroy that scheme, and so they 
had to stop his rice production and that is what they did. It 
was just very convenient for them that it could also be a 
source of cash. They expected no one to say a word.
    Mr. Smith. I see. I think you, Mr. Moore, made a very, very 
important point, one that you have never lost a conviction. 
That you have throughout your entire career put the bad guys 
behind bars, never losing a conviction is, I think, an 
extraordinary record, and that includes Americans. You very 
carefully vetted this case before you took it and took this 
upon yourself, and again you are doing it pro bono.
    How would you advise the State Department to separate cases 
where there is a truly, a crime has been committed? Do they do 
any kind of vetting of the substance of the issue so that an 
innocent man does not languish in a prison, now facing possible 
death because of their lack of advocacy? Is there any due 
diligence being done by U.S. State Department?
    Mr. Moore. Well, I do believe somewhere in the State 
Department, deep in the hallway, they do probably discuss 
whether the person is guilty or innocent. But if they just 
simply demanded rigorous compliance with a country's own 
judicial system, then they wouldn't have 90 percent of these 
problems. For instance, in the Knox case 90 percent of the 
evidence was simply falsified. Its admission was against 
European law, Italian law. If they had just held their feet to 
the fire on that she never would have been convicted in the 
first place.
    I am not saying that governments can't arrest Americans on 
suspicion even if they are wrong. I get that. That is a 
fundamental right. But they are wrong in Jacob's case. And if 
we held their feet to the fire and said, you must charge this 
man, you must give him the right to answer the charges, and if 
we held them to reasonable behavior it doesn't matter to us as 
much if the person is guilty or innocent because we will force 
them to act lawfully. And in those cases where they say they 
have acted lawfully and they have essentially done a Stalin and 
created their own verdict, then we can intervene. Right now, 
Jacob should never have been arrested, but now that he has he 
should be immediately released on bail at least. It is 
offensive to me to say that because I know he is not guilty. 
But if we are not going to demand his release for any, 
unconditionally, then at least bail and let him come back here.
    Mr. Smith. Has Secretary Clinton called you, Ms. Ungar?
    Ms. Ungar. No, she has not.
    Mr. Smith. Or anybody from her office?
    Ms. Ungar. No. No, they have not.
    Mr. Smith. Let me ask you one final question, and I have 
others but would a trip, a congressional trip, to visit him be 
of help and assistance, if I were to put together such a trip?
    Mr. Moore. I think it would be extremely helpful for 
Jacob's safety. If the Bolivian Government believes that they 
could get away with harming him to quiet him, and that if by 
harming him this would all stop, they would. If they believe 
that the Government and the press are watching closely and if 
Jacob stubs his toe we are going to march into Morales' office, 
then his safety at least could be enhanced.
    Mr. Smith. Thank you. I again want to just observe that 
your comments, Mr. Moore, about the lack of advocacy and the 
fact that that is antithetical in the State Department upward 
mobility, if you will, comports absolutely with instances that 
I have faced over and over again. I have been in Congress 32 
years, and while I always hope for the best, and as you pointed 
out so well, they are very bright people, very good people, but 
it is not the way to advancement if you ruffle the feathers of 
people of the host country. Nowhere have I seen this more 
apparent than in the area of international child abduction.
    I got involved with the David Goldman case and spent the 
better part of a year working on his case. And while the 
welfare and whereabouts, and the consular people in Brazil were 
extraordinary, empathetic, when it came to the higher levels, 
Assistant Secretary, Secretary of State, and even the 
President, they were AWOL, for want of a better word. Yes, 
there was a concern, maybe an empathy, but there was no real 
advocacy whatsoever with Lula, who was then the President of 
that country, to get David Goldman, his son, Sean, back to the 
United States and, frankly, back to New Jersey. There are in 
excess of 2,500 other American children who have been abducted, 
and we have done so little at the Department of State. I have a 
bill pending called the Sean and David Goldman International 
Child Abduction Prevention and Return Act that we are trying to 
bring forward to the House to give the President some real 
tools, and the Secretary of State, to combat this violation of 
Americans' human rights, and frankly, they could be doing so 
much of it already, administratively, they don't even need the 
bill. But we are trying to give them direction as well as a 
prescribed course of action. But this is shocking, but it is 
also par for the course. But that has to change and I do think 
your testimonies today have been game changers; extraordinary 
testimony if ever I have heard it.
    I would like to now yield to Ms. Bass for any such time as 
she may consume.
    Ms. Bass. Sure. Thank you, Mr. Chair. And I actually want 
to follow up on what you just said, in terms of the structural 
problems within the State Department, in your testimony. And I 
just wanted to ask this question on my behalf but also on my 
colleague, Congressman Nadler, who had to leave, is what do you 
think can be done? And again, I am specifically talking about 
this case, of course, but also you are raising the structural 
issue and you have seen this many different times, so do you 
have any thoughts on that?
    Mr. Moore. I do have some thoughts on that. They are 
obviously not vague, or they are obviously not completely 
fleshed out. But to give you an analogy, in the FBI we had a 
problem at Waco when our tactical teams and our hostage 
negotiation teams were acting at loggerheads. They were opposed 
to each other essentially. And that seemed to work out well. 
And so what we had to do at that point was create a combined 
group whose number one goal was resolution of an issue, not 
resolution of an issue by a specific means. Now SWAT teams and 
hostage negotiators are on the same organization. I believe 
that there needs to be, because it is becoming such a big 
problem as the Congressman has pointed out, an organization 
within State that specifically advocates for Americans in those 
situations. Because there is nobody, and it is not in anybody's 
interest to do it. If there was a specific organization--it is 
kind of like putting internal affairs in the police. Somebody 
has to do it. They are not going to be liked, but somebody has 
to do that important role.
    Ms. Bass. So in this specific case what do you think that 
the State Department should do? I mean I know that it is in the 
area of advocacy, obviously they should advocate, but 
specifically what would you suggest that we recommend them to 
do? There is a hearing coming up on June 11, so in the best of 
all worlds what would the State Department's intervention be?
    Mr. Moore. I am not going to give them specific 
instructions because they certainly know what is in their tool 
kit. They haven't opened the tool kit yet. I would say the 
number one thing they haven't done is put the lightest--what 
they have done so far is almost winking at the Bolivian 
Government and saying, we are going to make a show of appearing 
to object, but really we are friends and we are going to go out 
and dance at your festivals. If you look at their Web site all 
you see is literally dozens of photographs of Embassy personnel 
at functions, at concerts, at community areas, giving books to 
libraries. Nowhere is Jacob mentioned in the entire Web site.
    Ms. Bass. It is appropriate for the State Department 
officials to attend the June 11 hearing? And I would imagine 
that they have not attended the previous hearings.
    Ms. Ungar. They have attended every hearing.
    Ms. Bass. Oh, they have. But they have what?
    Ms. Ungar. Nothing.
    Ms. Bass. They are monitoring it as you said.
    Mr. Smith. Would the gentlelady yield briefly?
    Ms. Bass. Yes, sure.
    Mr. Smith. Would it be appropriate for us to be at the June 
11 hearing?
    Mr. Moore. I think it would send a message. I think they 
would cancel the hearing.
    Ms. Ungar. They may do that anyway.
    Mr. Moore. Really it is kind of like asking somebody to 
come in and explain where the money is that is missing. They 
don't want to come to that meeting. They don't have evidence to 
present, so every single hearing is a delaying tactic.
    Ms. Bass. So I wanted to also ask you some questions about 
the case. And you were making references to the Bolivian 
Government and trying to understand why this happened to begin 
with, and the missing rice and the missing money, and is the 
business continuing to function on its own? Why did his 
business partner have nothing, I mean there were no charges. He 
wasn't arrested. So in terms of--what was the motive?
    Mr. Moore. The business partner didn't go to Bolivia. That 
is why he wasn't arrested.
    Ms. Bass. I see. Do you believe if he had gone to Bolivia 
he would have suffered the same fate?
    Mr. Moore. I do.
    Ms. Bass. I see. And so what was the government's, what is 
behind it? I mean you mentioned the socialist Government of 
Bolivia. What do you think, they were trying to nationalize the 
farm? I mean what----
    Mr. Moore. I am trying to take a complicated subject and 
put it down into about 30 seconds. But Evo Morales' big issue 
right now is to prove that socialism is far superior to 
capitalism.
    Ms. Bass. Understand.
    Mr. Moore. And so part of what he has been doing is trying 
to showcase different things that prove that. The profitability 
of a private airline was embarrassing to him so he had to 
eliminate it.
    Ms. Bass. Has there been a lot of publicity about this 
case? In other words, holding him up to the public in Bolivia 
as this is a crime?
    Mr. Moore. No.
    Ms. Bass. So they have not been covering this.
    Mr. Moore. It is not in their best interest.
    Ms. Bass. Yes. Well, I mean when you mentioned that they 
have been looking for examples, I was just wondering if he had 
made this an example.
    Mr. Moore. This was a preemptive act, and frankly, this is 
how it happened. They were fairly unaware and unconcerned at 
the beginning because of the production levels that the farm 
was coming up with. What they didn't anticipate was these were 
just startups and they hadn't completely cultivated all the 
land. Jacob, at a certain point, went in and asked somebody to 
print bags for 500 million pounds of rice. That sent a 
shockwave throughout the agricultural community which got to 
the government, and they thought 500 million pounds of rice 
will rapidly destabilize our control of the rice market.
    Ms. Bass. So were there other rice farmers that were, 
Bolivian rice farmers that also objected because they were 
concerned that the yield was so much? You know what I mean, in 
other words, it was competition?
    Mr. Moore. He was taking all the trucks, all the--he had so 
much rice that he was using almost all the infrastructure to 
process the rice, yes.
    Ms. Bass. I see. And Ms. Ungar, did you want to say 
something?
    Ms. Ungar. I just wanted to clarify that it was 50 million 
pounds of rice, and it was----
    Mr. Moore. Oh, 50 million pounds. I am sorry.
    Ms. Ungar. There isn't one company in Bolivia that is able 
to produce that amount of rice.
    Ms. Bass. I see. Yes, so the other companies could be 
coming into play in terms of this.
    Ms. Ungar. I don't believe that it was the other companies. 
Those are really small-time companies with very, very small 
volume, too small to feed Bolivia.
    Ms. Bass. I see. And the final question I wanted to ask you 
is, you mentioned that by doing the CNN interview you were, 
well, they attempted to file charges. So you have been unable 
to go back to Bolivia because of this? Are you under threat of 
being arrested if you go back?
    Ms. Ungar. Yes, I did actually take the risk of going back 
to Bolivia because I couldn't stay away and leave him alone for 
such a long period of time. I tried to do it over holidays 
where there was celebrations in Bolivia, so by the time that 
they realized I was there I was already on my way home. But I 
cannot go back there. It is not safe for me to be there.
    Ms. Bass. Okay.
    Ms. Ungar. And he is there all alone. There is no one there 
with him.
    Ms. Bass. Right. I am very sorry. Thank you very much. I 
yield back.
    Mr. Smith. Thank you, Ms. Bass.
    Mr. Turner?
    Mr. Turner. Thank you, Mr. Chairman. The plant and 
equipment, there was a $20 million investment of international 
money mostly came in here as well as the initial rice harvest. 
Bolivia has degenerated into some type of kleptocracy. If Jacob 
were to be found innocent, would they be obligated to return 
the plant, equipment, the rice? Does that now make this even 
far more complex and confound our efforts?
    Ms. Ungar. Well, the rice is gone so they can't return it. 
The equipment has been dismantled and the parts have 
disappeared, so there is no equipment.
    Mr. Turner. Disappeared.
    Ms. Ungar. And the land was confiscated, so there is 
nothing left.
    Mr. Turner. All right.
    Mr. Moore. And they are growing something else on the land.
    Mr. Turner. Coca?
    Mr. Moore. Probably.
    Mr. Turner. So would you say there is a major disincentive 
for everyone involved in this to adjudicate this properly and 
say he is innocent?
    Ms. Ungar. Yes.
    Mr. Turner. So if there is any light at the end of this 
tunnel it will be a diplomatic hardball and our State and 
executive branch are going to have to make uncompromising 
demands. So far we haven't seen any willingness to do that, is 
that fair?
    Mr. Moore. Yes.
    Ms. Ungar. Yes, it is.
    Mr. Turner. Do you see a path out of this?
    Mr. Moore. I think we might have some traction in this 
after July. I think the Charge and the Consular Section Chief 
are both transferring out, and I am sure they both were trying 
to push this away until they went into their next 
reincarnation. And the new people will have to deal with it I 
would hope.
    Mr. Turner. Thank you. I yield back.
    Mr. Smith. Thank you, Mr. Turner. Ms. Bass, did you have a 
question?
    Ms. Bass. Yes, just real quickly. You mentioned that they 
were growing something else. What are they growing?
    Mr. Moore. I talked to Jacob yesterday, and the allegations 
among the prisoners are that the Bolivian Government is rapidly 
seizing privately owned land and converting it to coca use, and 
he believes from what he has heard through the prisoner 
grapevine that his land has been converted to coca growing. It 
is a better product financially.
    Mr. Smith. Mr. Deutch?
    Mr. Deutch. Thank you, Mr. Chairman. First, Ms. Ungar and 
Ms. Weinberger, your willingness to be here today to testify 
means an enormous amount to us, clearly to Jacob, and this 
horrific human rights abuse that continues is now front and 
center where it should be. Your family members, your community 
and we as well are grateful for your willingness to participate 
today, so thank you very much for being here.
    Ms. Ungar. Thank you.
    Mr. Deutch. I would like to just go back and talk a bit 
about what communication, it is not clear to me what 
communication has taken place between the U.S. officials and 
the Bolivian Government. Has there been an exchange of 
correspondence? Have you been copied on any correspondence?
    Ms. Ungar. The Charge has met with the Foreign Minister of 
Bolivia several times for other issues, and did raise Jacob's 
case. He also met the chief of the Embassy, Kate Flachsbart, 
also met with the Attorney General of Bolivia. At all times the 
meetings were not about Jacob, but they did raise the case, and 
that is all that was done. I don't get any information from the 
State Department, and unless I specifically ask, ``Have you 
done something, what happened?'' If I don't ask I don't get any 
information.
    Mr. Deutch. What was the response from the Bolivian 
officials?
    Ms. Ungar. Every response is the same, we will look into 
it.
    Mr. Deutch. Let me talk for a moment about the hunger 
strike. It is 7 weeks now that Jacob is on a hunger strike. Is 
there a response? Has there been a response from the Bolivians 
to his deteriorating condition? What has been the response to 
that?
    Ms. Ungar. No, Bolivians don't care if someone goes on a 
hunger strike, but the Americans do.
    Mr. Deutch. I would like to point out something, and I 
would like to make a request to the chairman. I would like to 
point out it is little surprise that in a country whose leader, 
Evo Morales, has befriended some of the worst human rights 
abusers in the world in the Castros, in Ahmadinejad, that this 
kind of horrific situation could take place shouldn't be 
shocking, yet of course it is and certainly the direct impact 
that it has on you and your family makes it so.
    I hope that rather than speculating about what is in the 
toolbox of the State Department, I mean I don't know, Mr. 
Chairman, whether the State Department was invited to 
participate today----
    Mr. Smith. Yes, they were. We asked repeatedly that they 
come here and testify and they adamantly refused. And they are 
welcome. They are welcome anytime.
    Mr. Deutch. It seems to me that at the same time that we 
continue to press this issue and that we do everything we can 
to press this issue with the Bolivians, we do provide oversight 
to the State Department. And I would hope that we would have an 
opportunity to pursue in some greater detail whether, if it is 
appropriate here in open session, if there are tools in the 
toolbox that require classified discussions that we reach out 
to have those meetings as quickly as possible so that we 
understand the steps that can be taken and can encourage the 
State Department in the strongest possible terms to utilize 
them.
    And I think the focus as we go forward clearly has to be on 
Jacob in this, again this just horrific situation. There is 
time for further discussions about the State Department and 
whether or not--Mr. Moore, I am not sure that I agree that 
there is a disincentive for professionals at the State 
Department to look the other way and not stand up for 
Americans. I am sure they would argue. We can have those 
discussions in future oversight hearings. Right now I want to 
do everything we can to schedule those meetings and to press, 
to know that everything that can be done is being done. And in 
the meantime, the fact that it is now 7 weeks into a hunger 
strike, and you described Jacob's condition, this is an issue 
that goes beyond this subcommittee and beyond the discussions 
taking place on Capitol Hill. There is a very serious abuse of 
human rights here, and the human rights community I hope will 
engage in a very profound and serious way as well even as we 
continue to do our work here. And again, I appreciate so much 
your willingness to be here and to speak up in this very 
powerful way.
    Ms. Ungar. Thank you.
    Mr. Deutch. I yield back.
    Mr. Smith. Thank you, Mr. Deutch. Any further questions by 
the panels? Just as a conclude and perhaps, Mr. Moore, you 
might want to speak to this. I think it was you who said this 
that Jacob was seen as being an American, White, Jewish, and 
perhaps well off. I have worked for the last 30 years, more 
than 30 years, on combating anti-Semitism, and very often it is 
very thinly disguised but it is rampant throughout the entire 
world, including in the United States. It is getting worse. 
Just recently I chaired a hearing on the rising tide of anti-
Semitic activity globally and it is, some pockets of the world 
obviously it has gotten demonstrably worse, but it is in South 
America without a doubt. And I am wondering if you have 
detected any sense of anti-Semitic behavior as to how the 
Government of Bolivia has mistreated Jacob?
    Mr. Moore. I think you can't discount it. Morales is very, 
very desperately trying to improve his relationship with Hugo 
Chavez over in Venezuela, and Venezuela recently invited 
Ahmadinejad to come visit. So anything he can do which would 
push his country toward that direction would help his status 
with Chavez.
    Mr. Smith. Appreciate it. Ms. Ungar?
    Ms. Ungar. I would like to make a comment on that too. At 
the arraignment which was on June 4, it was on the Sabbath, it 
is on a Saturday, and they wanted to move Jacob from the 
holding cell, which was in the FELCCN Building, into the 
courtroom, and they had to do that by car, and he begged them, 
please, please don't make me go by car. I am a religious Jew. I 
observe the Sabbath. And they dragged him and shoved him in the 
car saying, we don't care about religion.
    Mr. Smith. I appreciate that very much. Is there anything 
our distinguished panelists would like to say in closing? You 
certainly have covered Jacob's plight extraordinarily well.
    Ms. Ungar. I would like to say one more thing. That being 
that the 18 months is a violation of international law and a 
violation of human rights, it is coming up on June 21. But even 
though we get to that point, they will probably find something 
new to start investigating and keep him for an additional 18 
months. And the reason I am mentioning this, because I have 
spoken to some members and the response that I received from 
some of the members is, let us wait and see what happens on 
Monday, on June 11. I have heard this for the past 12 months. 
Every time a hearing was scheduled, okay, let us wait for this 
one. Let us wait for this one. I don't want to hear let us wait 
for the coming one. We need to do action now. Our time is 
limited. Time is of the essence because we may not have who to 
bring home shortly. Thank you.
    Mr. Smith. Thank you. And that is the last word, eloquently 
stated, thank you. The hearing is adjourned.
    Ms. Ungar. Thank you.
    [Whereupon, the hearing was adjourned at 11:51 a.m.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


            <F-dash>\<bell>a<star><script-l><box><natural> 
                     <F-dash><func.-of><Register>\

   Material submitted for the record by the Honorable Karen Bass, a 
        Representative in Congress from the State of California

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
